E

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-7
SElLA LAW LLC,
Petitioner,
v.
CONSUMER FINANCIAL PROTECTION BUREAU,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
RD LEGAL FUNDING PARTNERS, LP, RD LEGAL FINANCE, LLC, RD LEGAL FUNDING,
LLC, AND RONI DERSOVITZ SUPPORTING PETITIONER in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.l(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 5119 words,
excluding the parts that are exempted by Supreme Court Rule 33.l(d), as needed.

Subscribed and sworn to before me this 16th day of December, 2019.
I am duly authorized under the laws of the State ofNebraska to administer oaths.
PATRICIA BllLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

39181

